 STATE AND LOCAL PERSPECTIVES

     ON THE MCKINNEY ACT





                     Richard P. Kusserow
                     INSPECTOR GENERAL




OEI- OS- 90- 01090                         DECEMBER 1990
                                            EXECUTIVE SUMMARY

 PURPOSE

 This inspection was conducted in response to a request by the Interagency Colcii on the
 Homeless to obtain State and local perspectives on the impact of the Stewar B; McKiney
 Act in their efforts to combat homelessness.

 BACKGROUND

 State and local governments, in combination with volunta agencies, are the                           priar actors
in assisting homeless persons. The Stewar B. McKiney Act (hereafter referred to as
 McKinney ), created on July 22 , 1987, constitutes the major Federa response to
homelessness. Major         par of McKinney expire at the end of Fiscal Year (FY) 1990, and the
Administration has requested a 1 year extension of the expirng sections of McKinney in its
current form through September 30, 1991. The Interagency Council on the Homeless
requested this study to assist them in formulating recommendations for the FY 1992
reauthorization.

McKinney created new programs for the homeless and augmented existing ones. The 17
programs are funded by 6 Federal agencies and provide emergency foo and shelter, housing,
health care and mental health servces, education , job trning, alcohol and drg abuse
programs, and income assistance. The vast majority of grantees ar public or private
non- profit organizations. Funding for FY 1990 is $667 milion; the Admnistration has
requested $819 million for FY 1991.

SCOPE AND METHODOLOGY

We conducted an extensive literature review and held discussions with 236 people for this
study. Our respondents included the State contacts for the Interagency Council on the
Homeless, appointed by the Governor, in all 50 States plus the Distrct of Columbia and
Pueno Rico. We also spoke with 184 people in ten States (MA, NY, PA , GA , IL, TX , MO,
   , CA , WA), including public and private non- profit providers receiving McKiney funds,
persons from city human service or community development agencies, community action
agencies, task forces, Federal Emergency Management Agency boards, and advocates. These
ten States collectively received almost half of all McKinney funding from 1987- 1989.

We discussed with respondents three main topics: (1) What role McKinney has played in their
overall   approach   to the homeless problem; (2) how McKinney has affected                       coordination

the varous homeless        programs; and (3) what                 impact      McKinney has had in reducing
homelessness.
FINDINGS

Approach
FINDING 1: McKinney has helped States and communities in their overall.pproach to
homelessness.  Whether their approach has been to provide emergency services or to focus on
more permanent solutions, McKinney has helped make their approach more viable by
expanding available services.

Coordination
FINDING     2: McKinney has been a vehicle for dialogue about the homelessness issue. 

has clearly enhanced information-sharng in many places; however, few understand the

varous McKinney programs or how they fit together.


FINDING         3:   McKinney sfragmented structure makes long-term planning and the
development of comprehensive, integrated programs difcult.       The frgmentation of
McKinney is a barer to accessing funds, conducting long-term planning, and developing
comprehensive programs or integrated services.

Impact

FINDING        McKinney has helped meet emergency needs, but respondents do not view it
                4:

as the long-                                 Few respondents ar formaly evaluating the
                 term solution to homelessness.

implementation and the impact of McKinney programs. Their perception is that McKinney
funding should be continued, but they advocate additional Federal and State effons though
traditional programs to solve the problem, foremost among them, affordable housing.

RECOMMENDATIONS

There are several elements that might be par of any revision of McKinney: simplifcation
flexibility, long-term planning, coordiation , evaluation , and oversight. We propose three
recommendations that should be considered in addressing these elements. In addition
because McKinney was not viewed by respondents as the long-term solution to homelessness,
we propose a founh recommendation which addresses the response of the traditional Federal
programs to the problem of homelessness.

In the body of the repon we discuss these recommendations more fully by presenting an aray
of options for each recommendation. We recognize that the Interagency Council on the
Homeless and the varous Federal agencies may not choose to implement all of these options;
they are meant to ilustrate and suggest varous strategies for accomplishing the
recommendations.
RECOMMENDATION #1: Structure the McKinney programs to facilitate more
comprehensive and integrated services.

RECOMMENDATION         #2:


fragmentation, enhance planning, and simplify   funding.
                             Improve coordination at the State and local levels to reduce


RECOMMENDATION         #3:   Strengthen accountabilty and oversight at Federal, State and
local levels 





RECOMMENDATION         #4: Identify and implement ways to assist the homeless through
traditional Federal programs.

In implementing these recommendations, parcular concern should be given to children in
homeless families and homeless individuals who are chronically mentally il, substance
abusers, or both.



COMMENTS

Comments were received from two of the agency representatives (the Deparent of Health
and Human Services and the Deparent of Housing and Urban Development) that sit on the
Interagency Council on the Homeless. Both were in basic agreement with the findings. We
have made strctural and editorial changes to this repon in order to addrss their concerns
about the recommendations.
                            .....                  ................
                          .. . . . ., .. .. .. .. .. .. .. .. ....................................
                                                              .. .. .. .. .. .. .. .. .. .. ... ..                                           . . . .. . . . . . . .
                                                                                                    .. ... .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . . . .
                                                                                                   ..




                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION

           Purpose
           Background. . .
       Scope and Methodology

FINDINGS

       McKinney has helped States and communities in their
       overall approach to homelessness . .

           McKinney has been a vehicle for dialogue about the
        homelessness issue . 





        McKinney s fragmented structure makes long-term

       planning and the development of comprehensive,

       integrated programs difficult. . . 

       McKinney has helped meet emergency needs, but

       respondents do not view it as the long-term solution

       to homelessness . . 


RECOMMENDATIONS

APPENDIX             A ................................................ 





APPENDIX             B ................................................. 





APPENDIX C                                                                                                                             . . . . . . . . . . . C­
                                    INTRODUCTION


PURPOSE

This inspection was conducted in response to a request by the Interagency Coutcil on the
Homeless to obtain State and local perspectives on the impact of the Stewar B. McKinney
Act in their efforts to combat homelessness.
BACKGROUND

For the past several years, homelessness has garered increasing attention by the national
media and by people in States and localities faced with growing numbers of homeless people.
The problem has been examined in some depth by many public and private agencies and
interest groups. Yet to date, the exact dimensions of the problem remain unclear.

State and local governments, often along with volunta agencies, have traditionally been , and
continue to be, the primar actors in assisting homeless persons. The Stewar B. McKinney
Act (hereafter referred to as " McKinney ), signed into law on July 22, 1987 and reauthorized
on Novel!ber 7, 1988, constitutes the major Federa response to homelessness. Portons of
McKinney expire at the end of Fiscal Year (FY) 1990, and the Admnistration has requested a
I year extension of these sections in their current form though September 30, 1991. The
Interagency Council on the Homeless requested this study to assist them in formulating
recommendations for the FY 1992 reauthorization.

McKinney created new programs and augmented existig ones to assist the homeless.
McKinney s 17 progrs ar funded by six Federal agencies. Collectively they address the
homeless population s need for emergency foo and shelter, trsitional and permanent
housing, priar   and mental health care services, education, job trning, alcohol and drg
abuse programs, and income assistance. Funding for FY 1990 is $667 millon. For FY 1991
the Administration has requested a budget of $819 millon.

McKinney was intended to specifically target the homeless population. However, homeless
persons may also receive aid from other traditional Federal programs, both targeted and
general. Targeted programs include: the Runaway and Homeless Youth Program , the
Community Services Program, Aid to Familes with Dependent Children (AFC), Medicaid,
Supplemental Security Income (SSI), the Community Development Block Grant (CDBG),
and Food Stamps. General programs include those which provide mental health, substance
abuse , job training, public housing, or veterans services.

As the principal mechanism to coordinate McKinney programs, McKinney created the
Interagency Council on the Homeless (hereafter referred to as "the Council" ), comprised of
the heads of 15 Federal agencies. The Secretar of the Deparent of Housing and Urban
Development (BUD) serves as the Chairman , and the Secretar of the Deparent of Health
and Human Services (HS) serves as the Vice Chaian. To help provide technical assistance
to States and localities, the Council has staff in Washington , D. C. plus HUD staff in each
region , detailed to the Council , who serve as regional coordinators. The Council also asked
each Governor to designate a State contact person to work with them.

SCOPE AND METHODOLOGY

We conducted an extensive literature review for this study on topics such as: (I) the
characteristics, causes, and current status of homelessness, (2) funding of varous homeless
programs, (3) urban assistance policies, and (4) McKinney s implementation
accomplishments, and suggested modifications. (See Appendix A for a bibliography of the
material reviewed.

For background, we met with persons from national organizations involved with homelessness
issues: the National Governors ' Association , the U. S. Conference of Mayors, the National
Law Center on Homelessness and Poveny, the Roben Wood Johnson Foundation , the Council
of State Community Affais Agencies, and the National Allance to End Homelessness.

We talked with 236 people for this study, primary during March and Apri 1990. For State
perspectives, we spoke with 52 State contacts, from all 50 States, Washington , D. C., and
Pueno Rico. For local perspectives, we spoke to 184 people in the ten States where HHS
regional offces are located (MA , NY, PA , GA , IL , TX, MO, CO, CA , WA) in thee tyes of
settings: the large city where the HHS regional offce is locate; a mid-size city with
population between 75, 000- 200, 000; and a rural area with a county population of under
75, 000. (See Appendix B for a list of these States and sites.

Local respondents included 102 public and private non-profit providers receiving McKinney
funds, and 82 other respondents from city human service or community development
agencies, community action agencies, task forces, Federal Emergency Management Agency
boards, and advocates. Some of these other respondents are also providers, because they serve
the homeless with non- McKinney funds or are priar recipients of McKinney funds, which
they then subcontract to smaller providers.

The ten States we visited collectively received almost half of al McKinney funding from
1987- 1989. Five (CA , NY, TX , IL , PA) rank as the top five recipients; they alone received
36 percent of all McKinney funds for those years.

This inspection focuses on three mai topics. One: Has McKinney caused changes in State or
local    approaches            to homelessness? Two: Has McKinney served to strengthen or weaken State
and local         coordination      efforts? And thee: Has McKinney had any impact  in reducing the
problem of homelessness? The fmdings of this inspection are presented with respect to each
of these topics (approach, coordination, and impact), followed by recommendations of
possible ways to improve the effectiveness of McKinney as well as the traditional Federal
programs.
                                          FINDINGS


APPROACH

FINDING 1: MCKINNEY HAS HELPED STATES AND COMMVNITIES N THEIR
OVERALL APPROACH TO HOMELESSNESS.

      States and communities are moving through an evolutionary process in their
      approach to homelessness.

We asked respondents if they had changed their approaches to the problem of homelessness
during the past 5 years, especially with regard to the focus of their programs and the mi of
services. Over 75 percent of al respondents said they have gradualy shifted from a heavily
emergency response towards establishing a continuum of transitional or long-term services, or
both , geared toward a permanent solution.

This progression towards permanent solutions appears to be an evolutionar process. It has
been influenced by many interrlated factors, including the extent and nature of homelessness
in an area, the length of time a community has been dealng with it, the degree of public or
legislative . concern, and the availabilty of service dollars and non-moneta resources. In
general , we found that the longer a State or city has grppled with the problem , the more
likely they were to have better identified the needs of their homeless population , mobilized
resources, established a network of emergency services, and trained their sights on transitional
or long-term services.

States are clearly undergoing this kind of evolution. The majority of the State contacts said
that their States had shifted to a more transitional (60 percent) or long-term (21 percent) focus.
Only 12 percent said their State had just begun to deal with the problem. In 23 States
governors have offcially proclaimed homelessness as a priority, and in five more, unoffcially.
According to State contacts, this has led to increased services or funding. All but one State
have changed their mix of program or services; expansion has taken place across the board,
with about 20 percent of the State contacts reponig an increase in shelter services, housing,
or health or suppon services. Two- thirds of the States have some son of special funding for
the homeless, although amounts var from $20, 000 to over $100 millon; In fact, half of the
providers in our sample receive some son of special State funding.

On the local level , over 80 percent of the providers interviewed reportd having expanded
their mix of programs and services in the past 5 years by adding one or more new types of
services; for example: 19 percent have increased either trsitional or permanent housing;
25 percent have expanded health , mental health or substance abuse services; 25 percent have
increased suppon services such as job training, day care, or education; and, 4 percent have
expanded prevention effons. .
        ',




As a general rule, the large cities in our sample appear to be half a step ahead of mid-size
cities, which in turn are a full step ahead of rural areas. Very few (6 percent) of the large-city
providers remain at a purely emergency response; most have moved beyond this and are
focusing on the transitional (36 percent) or long-term (42 percent) needs of their homeless
populations. While similar proponions of the providers in mid-size cities are also focusing on
transitional and long-term needs , a quaner said they are stil at an emergency s&ge. As to
rural providers, half are at an emergency focus (just beginning to deal with the problem),
whereas only 13 percent have shifted to a long-term focus.

However, this difference is not ironclad. Looking across States, New York, Massachusetts and
Washington are clearly farher along this continuum than Georgia, Texas, Missour, or
Colorado. On the local level , all three sites in New York State were geared toward a
long-term focus. In Pennsylvania, the large city we visited had fallen back to a primarly
emergency response due to city budget cuts, while the mid-size city remaied geared toward a
long- term focus.

      McKinney has helped States and communities make their approach to
      homelessness more viable by expanding available services.

McKinney dollars were a welcome resource everywhere. McKinney has played a positive
role in expanding services, either alone, in combination with other factors, or simply as a
supplement to services that existed before 1987. At least 75 percent of al providers who have
expanded services in the last 5 years, whether emergency, trsitional    housing, health
suppon services, creited this expansion al l or in pan to McKiney.

McKinney s most visible contrbution has been in places where there was no focus on the
homeless as a distinct population prior to 1987. Close to one- half of the respondents who said
they have just begun to deal with the problem credited McKiney with enabling them to do
so. We heard comments such as: " McKinney waves the flag to say, ' Wake up - we ve got a
problem " and, " If there were no McKinney funds, our program wouldn' t exist

In places that were aleady addressing the problem , McKinney helped create a wider mix of
services than previously existed. For example, McKinney " has been a catalyst in the
community for change " towards a more long-term solution , or " allowed us to serve
specialized populations. " One provider explaied how he used McKinney to stabilize his
emergency services, then got McKinney funds for transitional services, which in turn " gave us
more credibility with other providers. " The city and business community gave his agency
grants for the first time, and he was able to turn more of his attention to long-term solutions.

In places which had been dealing with the problem for a long time, we often heard comments
such as " the city focus is ahead of the McKinney focus. " Here, McKinney did not lead but
rather enhanced already existing effons. For example, in 1989, New York City had a $500
milion annual budget for a broad range of homeless programs; because it was almost entirely
State and city funding (90 percent), we were told that McKinney " augments what we are
                                                                      ""



already doing. " In San Francisco, which alady had an agenda to create comprehensive
transitional services, McKinney helped by providing additional funds for such services.

COORDINATION

The term " coordination " had several different meanings to our respondents. F'r most, it
meant " information-sharng, " although some constred it to mean joint planning or service
integration. Consistent with these distinct differences in the way in which coordination was
interpreted, we present separate findings for each meaning.

FINDING  MCKINNEY HAS BEEN A VEHICLE FOR DIAWGUE ABOUT THE
               2:

HOMELESSNESS ISSUE.

          There is consensus among respondents that "dialogue,         communication, " and
           networking " have increased considerably during the past      years.

The vast majority of respondents have seen an increase in communication at the State or local
level , and often both. Task forces and coalitions have sprung up everywhere. Fony- four
States have a statewide governmental task force on homelessness. State agencies are
represented on 43 of these task forces, and are the sole members in one- thd. In half of these
task forces , persons from the Governor s offce, providers, advocates, voluntar organizations,
and others are also represented. By far, the most frequently mentioned activity of these task
forces is information-sharg.

Twenty- five States also have one or more other statewide coordiating bodies, typically a
coalition of non-profit providers, advocates, voluntar or church organizations , and others.
State contacts say that the primar activities of these groups are sharng information about
programs and resources for the homeless, and advocacy.

Respondents everywhere have also seen an increase in information-sharng at the local level,
between providers themselves or between local government, providers and others. Sixty- five
percent of the providers in our sample are members of a local task force. Almost all said they
found the task force helpful, primarly for puroses of informtion-sharng or provider
networking. They said it helps them lear how to get funding as well as find out what other
providers are doing and what programs are most successful.

           McKinney has clearly enhanced information-sharing in many places; however
          few understand the various McKinney programs or how they fit together.

The majority of our respondents echoed the sentiments of the State contact who said:
 McKinney has brought about a major degree of information-sharng. " For example, where
there is a State- level governI1ental task force, 60 percent of the State contacts said that
McKinney led to its creation. In addition , 75 percent of the providers credited McKinney with
playing a role in this increase in information-sharng. Many respondents indicated that
McKinney had a " trckle- down effect" by raising public awareness and giving the issue of
homelessness " credibilty.

However, in some places, factors independent of McKinney led to increased
information-sharng and the development of task forces. In States such as NeYi York and
California , for example, the increasing visibilty of homeless people on the str ts, as well as
increased media attention , has raised public awareness and stimulated govern nta or
legislative interest.

Everywhere, we heard how the infusion of new programs and dollars, including McKinney
dollars, led groups to get together to compete for funds. Unfonunately, some said that this
competition for funds has led to turf battes, since " we all go to the same welL"

Although information-sharng has increased, this has not led the local respondents in our study
to a thorough understanding of McKinney. To help focus our discussions, we handed them a
list of the varous McKiney programs. Many expressed surrise at the number and varety of
programs. Providers raely knew of McKinney progrs other than the ones they ar funded
by. Many asked what we knew about a specifc program, or who they could contact for
information.

In addition , many local respondents were not aware of Federal effons to help coordinate
McKinney programs. Sixty percent of the providers, and half of the other local respondents,
were not aware of any such effons. Also, only 18 percent of the providers, as contrasted with
75 percent of the State contacts, mentioned the regional coordinator for the Council. It should
be noted, however, that those local respondents who were aware of Federa coordination
effons were in States where the Council had recently held a regional conference.

The majority of providers said that Federal assistance would be helpful to tell them about
Federal programs and how to access them or about successful local progrs.

FINDING3: MCKINNEY' S FRAGMENTED STRUCTURE MAKES WNG- TERM
PLANNING AND THE DEVELOPMENT OF COMPREHENSIVE, INTEGRATED PRO­
GRAMS DIFFICULT.

We found little evidence that increased information-sharng has resulted in either joint
planning or service integration. The fragmentation of McKinney causes many problems for
States and localities both in getting funds and coordinating planning and service delivery. An
advocate noted: " They re decent programs, very positive. The problem is with coordination
. . . the complexity. " We also heard numerous comments to the effect that fragmentation
makes local coordination , in paricular, " a nightmare. " Finally, the fragmentation of programs
has often caused confusion: " Money is going allover the place and no one really knows
where it s going. . . there are too many players.
          The fragmentation of McKinney is a barrer                            to accessing funds.


Respondents said that because the funding cycles of the different McKinney programs are
disjointed, providers someties do not lear that funds ar avaiable in time to apply. Many
complained that the application process, especially for housing programs, is tocf complex.
Some said that the cost of completing a lengthy, cumbersome application with      xtensive
documentation discourages smaller providers with minimal administrative funds and staff
from applying. Others said that the one- year funding cycle leaves too little time, for smaller
providers especially, ' to complete applications, look for matching funds or meet other program
req uirements.

Respondents in mid-size cities and rura areas say that when it comes to getting McKinney
housing and social service dollars, they are at a competitive disadvantage with those in large
cities, who are more sophisticated and have grater resources at hand.

         Few respondents anywhere described coordination related to long-range
         planning.

The fragmentation of McKinney programs, disjointed funding cycles, the one- year funding
cycle, and fluctuating award amounts are all barers to long-rage planning. A State contact
noted that it is difficult to have a comprehensive State plan when most McKiney funds don
flow directly through the State. A person from a city huma service agency said that it is hard
for the city to develop comprehensive plans when McKinney funds ar awarded to private
non- profit organizations without the city s involvement.

A provider said that his agency plans as dollars become available, since they never know how
much they can count on. A recipient of Emergency Shelter Grant (ESG) funds said the agency
received $38, 000 in 1987, $6, 000 in 1988, and $35, 00 in 1989. Another, whose successful
job training demonstration program was not funded for a second year, noted: " It forces you to
think twice about applying. " Stil another said: " If they would make the levels of funding
more predictable, that in itself would drastically help foster coordination.

The consensus among respondents is that the Comprehensive Homeless Assistance Plan
(CHAP) has not been an effective tool for coordinating planning and should be improved.
Many view it as a list of resources and services rather than a plan. Some label it " purely an
exercise we go through " with " no teeth. " The most common suggestions for improving the
CHAP are closely related: to incorporate all McKinney, or all homeless, programs in the
CHAP, and to make the CHAP a strategic planning document. Providers, especially, stressed
that they need to be much more involved than at present in preparng local CHAPs.

         There is little evidence of formalized coordination of services.

Only 20 percent of the providers in our sample who belong to a local task force said it helped
them by promoting service integration or reducing duplication. And, while 80 percent said
they made routine referrals, only one- fifth said that these referrals were formalized; none of
these providers were in rural aras. Few specifically mentioned using case management
techniques or adding case management services in the past 5 years. Some noted that case
management was not an allowable expenditure in their grant. (This issue might be explored in
a future study. See Appendix C for a list of recommended follow-up studies.

Only 10 providers, all but one from California or New York, described specifiJattempts to
improve access to services by bringing homeless services together in one place, Some believe
that " this just is not practical or even possible " due to barers such as turf battles, the
diffculty of working with providers who are nOt used to serving the homeless, or logistical
problems associated with providing some services, such as prenatal care, in a shelter. Others
say it is not feasible to serve familes, the mentaly il , substance abusers, and youth in one
place due both to their different needs and concerns for safety. Some oppose the idea of
bringing homeless services together in one place, in priciple, because it may "make life too
comfonable for the homeless person " or create a separte service system.

Howe , shon of establishing a " one-stop-shop, " many providers do want to build more
formal service networks. Some task forces have developed resource dictories or used
McKinney funds to establish a coordinator position to this end. Funher, 20 respondents knew
providers who propose to more formally integrte services or provide a more comprehensive
mix in one location. 


The fragmented strcture of McKiney hinders service coordination, regardless of whether the
services are funded by McKinney or other sources. One problem is that " there ar too many
channels of funding. " Since funds flow to States, cities, counties and providers, it is diffcult
to know where money is going or whether services ar being duplicated. One provider noted
that coordinating health care services is difficult because McKinney health care funds flow
through three separte programs. A few other local respondents complained that McKinney
funds " get lost at the State level."

Disjointed funding cycles between McKinney programs and State and local governments
make it " impossible to get funds to compliment each other. " For example, one person said
that his city prefers to give CDBG monies to those who have not been awarded ESG funds,
but due to time frames previously established by the city for CDBG, must distrbute CDBG
funds before ESG funds are awarded.

There were complaints that restrctions on the use of funds within some McKinney programs
are barers to providers who want to offer more comprehensive services. Some examples
were: (1) HUD Section 8 funds cannot be used for required social services; thus grantees
must seek funding for the ten- year life of a project on a year- by- year basis from elsewhere;
(2) caps on preventive services in ESG and the Emergency Community Services Homeless
Assistance programs, and the $300 cost- per-user rate in Health Services for the Homeless
program , are too low; and, (3L the Homeless Veterans Reintegration Project does not provide
funds for suppon services, clothing, bus fare, or tools, all a necessar compliment to job
training.
-'.   -_..'--
                                                              , "





To remedy the problems caused by the fragmentation of McKiney, many respondents
suggested simplifying its progr strcture.

IMPACT

FINDING   MCKINNEY HAS HELPED MEET EMERGENCY NEEDS/BUT RE­
               4:

SPONDENTS DO NOT VIEW IT AS THE LONG- TERM SOLUTION TO HOMELESS­
NESS.

          McKinney has made more services available, especially emergency services,
          and improved the quality of life for   some.

Despite a lack of formal evaluation , our respondents did express definite opinions about the
impact of McKinney on the problem of homelessness. Only 15 percent believe unequivocally
that McKinney programs have led to a reduction in the number of homeless people; only a
few providers credited McKinney to any extent with moving the homeless into long-term or
permanent housing. An additional 25 percent of our respondents, parcularly providers, say
that McKinney program have led to a permanent solution for a few, but " the (homeless)
population continues to grow.

The most frequent response to a question about whether McKinney has had positive impact
was that it bolstered emergency services. Noted one provider We prevent people from
staying on the streets. " Funhermore, nearly one half said that McKiney has improved the
quality of life of the homeless by improving or bringing more appropriate services, putting a
temporar roof over their heads, or alleviating suffering to some degre. In sum, " the
population is being treated with more dignity.

          Respondents believe that many client populations are not being adequately
          reached, especially the mentally ill, substance abusers and families.

Despite the fact that many respondents have seen increased effons to taget famies, the
mentaly il , or substance abusers in the last 5 years, the quarers named at least one
homeless client group who, they believe, are still not adequately reached. About one-third
these respondents mentioned the mentally il and substance abusers; some added that the
dually diagnosed (people who are both mentally il and substance abusers), especially, need
far more services than are now available. About one- quarer said that famies are not
adequately reached. Others mentioned the rual homeless, teens and youth, or " the hardcore
homeless, " those who have been homeless for a long tie and may be mentaly il , substance
abusers, or both.

                                                        ,"




      Respondents favor continued McKinney funding but advocate additional
      Federal and State efforts through traditional programs to solve the problem
      foremost among them, affordable housing.

While over 75 percent of our respondents say that McKinney funding should c ntinue, at least
for the next few years, the vast majority also recognize that McKinney alone l not end
homelessness. They recommend additional Federal effons to achieve a perm         ent solution.


Although some respondents acknowledged that trditional Federal assistance programs should
ideally be part of the solution , many believe that at present, these programs are not adequately
responsive to the homeless. Only 20 percent of all respondents labeled their Federal agencies
response " adequate, " as compard with over 50 percent who have seen no increase in
involvement by these program in homeless issues. We heard complaints to the effect that,
 outreach by AFDC, SSI, and so on could be better" or there is no effective outreach to
shelters. " We also heard comments that these programs are not responsive because they do
not understand the homeless. Others feared that if funneled thugh trditional program,
McKinney dollars would " get lost in the shuffe " of the bureaucracy and not reach local
communities. For these reasons, they said, " the homeless population needs services that can
be provided through McKinney.

State- funded general assistace progrs, especially importt to homeless single adults, have
also been cut in some States. For example, in one State in our sample, the general assistance
budgethas decreased annually; in another, it was cut by 50 percent in 1990; and in a third, it
was dropped entiely for 1990.

Some respondents have tred to improve access for the homeless to these trditional     assistance
programs. McKinney providers help clients make appointments, complete applications, or
even accompany them to appointments. But success has often been limited. This remark by a
shelter provider is tyical: "Dealng with the welfare system contiues to be overwhelmg to
clients and advocates alike.

When asked what should be done to solve homelessness, the most frequent recommendation,
made by roughly two- thirds of al respondents, was that the Federal government should assure
the homeless access to affordable housing. This meant a varety of things, including
transitional, low income, low cost and subsidized housing, single room occupancy hotels,
housing rehabilitation and constrction , and BU Section 8 subsidies. However, many also
advocated measures to increase the earing power and incomes of the homeless, such as
improving education or expanding job training, raising the minimum wage, increasing AFDC
or SSI benefit levels, or creating jobs. Others said the government should increase support
services and housing specifcally for the mentally il and substace abusers, a large segment of
the homeless population.
          Few respondents are evaluating the implementation and the impa (o.(d
          McKinney programs.

Only 4 percent of the State contacts, 18 percent of providers (most of theIRiIbHg;e cities), and
1 percent of the other local respondents reponed having a formal process i8P      to evaluate
the impact of McKinney programs in their ara. Less than 10 percent sai             re even in
the rudimentar stages                                of developing one.       .H


This lack of formal self-eyaluation is of paricular concern given what al?.Pgar to be weak
Federal monitoring in some of the McKinney programs. While some FeWfalag n.ces have
conducted broad evaluations of their McKinney programs, there seems to      e alack of Federal

presence in monitoring the ongoing activities of individual grantees. ForeJarple,; in one
McKinney program, responsibilty for monitoring has been delegated to a          Qi#pm of
voluntar agencies, which has a relatively small sta to oversee thousand            tes. In
other cases, there are no staf assigned at the Federal regional offce leveIJ9s:p cifcaly
monitor the McKinney programs.

When we asked providers where they                            tu
                                           for information or assistance
                                                                         U!:   !9ney
programs, only a third mentioned a Federal progr representative. The .fEstlseJE help from a
State, city or county agency, or some other source.
                                  RECOMMENDATIONS


In attempting to suggest possible ways to improve the McKinney programs, we are mindful of
the context of the Federal government s involvement with the homeless issue oi'er the past
several years. We view the first phase (1983- 1987) as one of minimal involvertent , with the
Federal Emergency Management Agency (FEMA) providing emergency food and shelter
funds. The second phase (J 987 - 1991) involves the passage and implementation of McKinney,
with a wide varety of Federal agencies providing a range of services to different homeless
populations through a number of different grantees. We anticipate that a third phase would
begin in late 1991 , after passage of a revised McKinney, and would continue for 4 or 5 years
beyond 1991. Since practically none of our respondents felt that McKinney was the long
range answer to the problem of homelessness, we view the 1991- 1996 phase as one of refining
McKinney s role and bolstering the larger, traditional programs that address some of the long
range solutions.

In analyzing respondents ' answers, and in putting their answers in the context of other studies
about the problem of homelessness, we have identified several elements that might be a part
of any revision of McKinney: simplification , flexibility, long-term planning, coordination
evaluation and oversight. These elements would help to address respondents ' concerns about
the need to focus on long-range as well as emergency problems; the need to reduce the
fragmentation in McKinney; and the need to measure the impact that McKinney is having in
solving the problems of the homeless.

With respect to McKinney, we propose three recommendations which address the elements
identified above. In addition , because McKinney was not viewed by respondents as the
long-term solution to homelessness, we propose a fourth recommendation which addresses the
response of the traditional Federal programs to the problem of homelessness.

For each recommendation , we have presented an aray of options. We recognize that the
Council and the varous Federal agencies may not choose to implement all of these options;
they are meant to ilustrate and suggest varous strategies for accomplishing the
recommendations.


    1. Structure the McKinney Programs to Faciltate More Comprehensive and
        Integrated Services


Funds Transfer Option

One option that would stress flexibility would be to allow the currently existing programs to
include, up to a cenain percentage , funds that could be spent for a wider range of services.
For example , one McKinney program might allow for up to 20 percent of a grantee
expenditures to pay for activities allowed by any other of the McKinney programs. Thus, one
of the housing programs under McKinney would be allowed to pay for support services
authorized under other McKinney programs. While this would not cut down on the number of
currently existing programs, it would provide some flexibility for grantees who want to use

multiple purposes.
their funds for a varety of homeless needs. This option expands upon current use of funds for


Program Simplifcation Option

Another option for restrcturing that would stress simplification and coordination would be to
consolidate McKinney into major program categories. This might include combining the five
housing programs into one, the varous health programs into one, and the suppon services into
one. From a grantee perspective, this would help to alleviate some of the confusion that
currently exists about the multiple Federal programs that are available and perhaps cut down
on fragmentation at the local level.

Functional Categories Option



A third option would be to strcture the Federal funding in accordance with the functional
ability of the homeless population.

      Current data suggests that over half of the homeless are dysfunctional due to mental
      ilness, substance abuse, iliteracy or other disabling characteristics. The vast majority
      of these people are single and reside in urban areas. Perhaps McKinney could be
      restructured so that the varous programs that relate to this population are grouped
      tOgether. This pan of McKinney might include the mental health and health care
      programs, the housing programs, and the adult education grants. An outrach and
      intensive case management component might also be included. Or, housing and support
      services could be combined; for example, the Shelter Plus Care program, currently in
      the Administration s Homeownership and Opponunity for People Everywhere (HOPE)
      legislation , could be included in this par of McKinney since it specifically addresses
      this population.

      Another segment of the homeless population includes people who are able to function in
      society and in a home, but are experiencing very diffcult times. This population
      includes those who have lost their jobs, are involved in domestic disputes, have had a
      health emergency but have no insurance, or have experienced other severe economic
      setbacks. These people require emergency supponive se ices for a limited period of
      time. Programs included in this par of McKinney might be emergency food and
      shelter , community services , rental assistance , children and youth education , job
      training, and preventive programs. This segment of the homeless population may
      require less intensive case management and more referrals. The private voluntary
      agencies may playa more substantial role , and there may also be a long term role for
      AFDC to have with the family ponion of this population.
Restructuring the McKinney programs is an attempt to help simplify and coordinate programs
that many local respondents view as a fragmented and complicated system. However
respondents do not anticipate that a streamlined Federal funding system under McKinney will
eliminate homelessness. Instead , they look to the larger, traditional programs such as AFDC,
SSI , Food Stamps, CDBG, Medicaid, public housing, mental health, substance;abuse, job
training, education , veterans, and others, to provide the long-term solutions. ey view
McKinney as a necessar interim measure until these traditional programs lear how to reach
out and serve the homeless adequately.



        2. Improve Coordination at the State and Local Levels to Reduce

            Fragmentation , Enhance Planning, and Simplify Funding



Cities and States Option

One way to deal with the current fragmented system is to fund fewer grantees who would
have more responsibility for coordinating the varous homeless programs. The most obvious
grantees would be the public bodies at the State and local levels. Which programs should go
to the States and which should go directly to the local public bodies was not clearly resolved
in our discussions with respondents. On the one hand, it was clear that the larger cities had
been dealing with the problem for a longer period of time than either the mid-size cities or
rural areas, and that they had available a much broader range of programs. In addition , the
focus of most of the big cities had moved to longer range solutions, whereas State respondents
were more frequently at the emergency or transitional stage. There were also concerns about
additional administrative expenses for programs that went though State offces. On the other
hand , States were clearly in a position to provide additional funding and, in some cases,
technical assistance, parcularly to smaller communities.

Local Agencies Option

Another option would be for the local public body to designate a local agency, whether public
or private non- profit, to be the recipient of McKinney funds. This would require only one
local agency to son through the varous fundings available at the Federal and State level and
would provide a focal point in the community for coordination , planning and evaluation.

Funding Cycle Option

Some of the confusion in applying for funds may be reduced if the funding cycles of the
various McKinney programs were more consistent. This might be accomplished by having
the applications for the different programs due at approximately the same time of year each
year.
Case Alanagement Opilon

Access to services for homeless clients could be improved by emphasizing the importnce of
case management at local levels. Some McKinney programs authorize expenditures for case
    agement. In these programs, local providers could be encouraged to use McKinney
funding for this purpose. In addition , the statute could be amended to make case management
an allowable expense under all of the McKinney programs.

Planning Option



Enhanced planning could be achieved by expanding and improving the existing CHAP so that
it could be used as a strategic planning document. To do so, it would need to incorporate
goals, objectives and action plans, as well as include all homeless programs in a jurisdiction
regardless of the source of funding.


    3. Strengthen Accountabilty and Oversight at Federal , State, and Local Levels
Self-Evaluation Option

One way to require more accountability at the local level would be to mandate self-evaluation
by grantees. As noted in Finding 4 , very few grantees currently have a formal self-evaluation
process. This type of process has worked successfully in other federally funded programs
such as the Head Star program. Of course, mandating self-evaluation raises the issue of
needing administrative money to car it out. Our assessment is that a small percentage of
funds, five or less , may be appropriate for planning and evaluation purposes. This would also
be allowable as an in- kind contrbution for matching purposes.

Local Council Option

Another means of providing both coordination and accountability would be to have a local
council that would develop comprehensive homeless plans for the community and would
evaluate whether the plans were being accomplished. The council would be comprised of
McKinney funded providers, voluntary agencies, and State and Federal personnel who work
in local communities, such as AFDC, SSI , and Veterans Affais personneL If this council
provided sound qualitative data to a single designated local agency receiving McKiney
funds, its influence would be increased. In some respects, this council may be viewed as a
natural extension of the CHAP, except that it would involve providers of all types (health
support services, housing, education , etc. ) and be linked to all McKinney funding sources in
the local community.

Federal Oversight Option

Oversight on .the pan of the Federal agencies might be increased by providing more formal
evaluation of the varous programs and by conducting more on-site visits to monitor and
provide technical assistance. As nOted in Finding 4 , for most of the McKinney programs there
did nOt appear to be designated Federal staff who were responsible for going on-site to review
local programs or to provide technical assistance when called upon.


     4. Identify and Implement Ways to Assist the Homeless through TrCiditional
         Federal Programs


Outreach Option

The existing Federal programs could enhance their effons to assist the homeless by
strengthening their outreach effons, especially to those individuals with mental ilness
substance abuse problems.

Targeting Option

Traditional Federal programs could examine ways to better meet the special needs ofthe
following subgroups: children who are in homeless families and homeless individuals who
are chronically mentally il, substance abusers, or bOth.



Federal Coordination Option

Federal agencies could also enhance their effons to serve the homeless by increasing the
coordination of their programs at both the State and local levels. Coordination should be
strengthened bOth among Federal agencies and between them and the providers of homeless
services at the State and local levels. 

                                      COMMENTS

Comments were received from two of the agency representatives (HS and HUD) that sit on
the Council. Both were in basic agreement with the findings. We have made structural and ed­
itorial changes to this report in order to address their concerns about the recomjlendations.
                          , "





                                                                  APPENDIX A

                                                                    Bibliography

American Public Welfare Association                                   Memo.          Washington , D.               : May 11 ,    '987

A Status Report on Homel ss Familes in America s Cities: A                                             29    City Survey.        United States
     Conference of Mayors. Washington , D. C.: May 1987

A Status Report on Hunger and Homelessness in America s Cities:                                                    1989. The United States
        Conference of Mayors. Washington , D.                                   : 1989


A Status Report on the Stewart B. McKinney Homeless Assistance Act of                                                       1987. The United

        States Conference of Mayors. Washington , D.                                         : June 1988


Barden , J. e. " America s Youth Being Driven to Streets.                                       New York Times.               February 5 ,   1990

Briggs, Michael               Homeless Youths Defy Stereotype, Study Says.                                        Chicago Sun- Times.
        Januar 15 ,         1990, p. 39
Bun , Marha R. and Cohen                       , Barbara E.,        America s Homeless: Numbers, Characteristics, and
     Programs that Serve                     Them.       Urban Institute Press. Washington , D. e.:                            July 1989


Bun , Marha R. and Cohen                   , Barbara E. Feeding the Homeless: Does the Prepared Meals
        Provision Help?                The Urban Institute, Washington , D. e.: October 31 , 1988

Center on Budget and Policy Prorities. 
                             Poverty in Rural America: A National Overview.

Cleveland Veterans Administration.                             Domiciliary Care Program. 
                        Cleveland, Ohio.

Copley, Steve. " Boeing              Investment Breaths Life into Downtown Hotel."                                           Boeing News.
        Seattle, WA: March 23, 1990

Council of State Community Affairs Agencies. 
                                   House of Representatives Conference Report
        Washington , D. e.:                October 18,          1989.

Council of State and Community Affais Agencies. 
                                       State and Homelessness: A Preliminary
        Policy Dialogue for the 1990's.                         Washington, D.                : 1989.


Council of State Community Affairs Agencies.                                     Biennial Report:             1984- 1986.        Washington




                                  C.
Council of State Community Affairs Agencies. 


        Washington , D.
                                                                                 Housing the Homeless: State Actions.
Culhane , Dennis. " Single Room Housing Won t End Homelessness.                                            New York Times.
    March 14 , 1990

DeParle , Jascon. " Bush Homeless Plan: ' Godsend' or False Hope?"                                         New York Times.
        Februar         12, 1990




                                                    Summary of Federal Programs Available to Help the
                                               C.: February 1987
Federal Task Force on the Homeless.

        Homeless.           Washington , D.

Filer , Randall K. " What We Really Know About the Homeless.                                      The Wall Street Journal.
      April 10, 1990

Finder, Alan. "                    O. HOtels: Trying to Revive an Old Idea.                   New York Times.          February 9
        1990. p. C15

Finder, Alan. " Nonprofit Groups Rebuilding Housing for the Poor. New York Times.
    March 11 , 1990. p. 23


Foderaro, Lisa W. " All the Money in Westchester Buys Little Hope on Homelessness. The
        New York Times. 
             April 8, 1990. p. 6
Freidmutter, Cindy.  Health Care Perspectives: Service- Enriched Housing for Homeless
     Familes.    The Roben Wood Johnson Foundation. New York , New York: February 1989

Golden , Tim. "              , Possibly Violent, and No Place to Go.                    New York Times.
           April 2 , 1990.
    p. Al

Harney, Kenneth. "                    S. May Help Flip the Flophouse Image.                     Chicago Sun- Times.         May 18,
        1990. p.

Homelessness Information Exchange.                   Family and Child Homelessness. 
                           Washington , D.
        May 1989

Homelessness Information Exchange.                   Transitional Housing. 
                 Washington , D. C.:         1990


Homewards: A Quarterly of the Homelessness Information Exchange.                                             Homelessness
   Exchange, Washington , D. C.: March 1990

Ifll , Gwen. " Drugs, Homelessness Increasingly Linked.                                 The Washington Post.
        December 21 , 1989. p. A6

Ifll , Gwen. " New Jersey Battles Homelessness by Preventing It.                                     The Washington Post.
        March 14 ,          1990. p. AI; A7




                                                               A - 2

Ifill , Gwen. " Pittsburgh Finds Diversity Works in Fight on Homelessness.                                                        The Washington
        Post. March 31 , 1990. p. A3


Institute on Medicine.                 Homelessness, Health and Human Needs. 
                              Committee on Healthcare
        for Homeless People. National Academy Press. Washington , D. C.: 1988.

Interagency Council on the Homeless. 
                          A Nation Concerned: A Report to the President and
        the Congress on the Response to Homelessness in America. 
                     Washington , D. C.: 1988

Interagency Council on the Homeless.                             Council Communique.                   Washington , D. C.:             Special
        Addition - Vol. 1 , 1988

Interagency Council on the Homeless.                             Council Communique. 
                 Washington , D.                : August
        1989

Interagency Council on the Homeless.                             Council Communique. 
                 Washington , D.                : October
        1989

Interagency Council on the Homeless.                             Council Communique. 
                 Washington , D. C.: December
        1989

Interagency Council on the Homeless.                             Data Base Informtion on                    McKinney Grants.
        Washington , D. C.:               December 27,            1988

Interagency Council on the Homeless. 
                           Non- McKinney Federal Programs Available to Help
        the Homeless.            Washington , D.               : July 1989


Interagency Council on the Homeless. 
                           The McKinney Act: A Program Guide.                                  Washington
            C.: July 1989



Interagency Council on the Homeless.                             The     1989    Annual Report on the Interagency Council
        on the Homeless.                 Washington , D.               : 1989


Interagency Council on the Homeless.                             Region V Workshop Material. 
                       Chicago, 11. ;      April 1990


Interagency Council on the Homeless. " Resource Lists. " Washington , D.                                                          : August 1989


Joint Center for Housing Studies. 
                      The State of the Nation s Housing                       1989. Harard

        University; Cambridge, MA.


Lemov , Penelope. " Transitional Housing Programs Get Under Way.                                                     Governing.         April 1990


Matthews, Jay. " Earthquake Swells Ranks of Homeless.                                            Washington Post.
                 October 27
     1989. p. A14




                                                                           A-3
Miller, Henry. " Assessment to the Implementation of Grants to Provide Health Services to the
     Homeless. " Center for Health Policy Studies. May 31 , 1989

National Alliance to End Homelessness. 
                            Checklist for Success: Programs to Help the Hungry
        and Homeless.                Washington , D. C.:            Spring 1990


National Association of State Mental Health Program Directors. 
                                  Mentally III H.omeless
        Persons: State               Services.       Alexandra , VA. : April 25, 1990

National Association of State Mental Health Program Directors. 48                                    States Document
        Expenditure History of the McKinney Act State Grant Program on Mental Health
        Services for the Homeless. Alexandra, VA. : Februar 5, 1990

National Institute on Alcohol Abuse and Alcoholism. 
  Synopses of Community Demonstration
        Grant Projects for Alcohol and Drug Abuse Treatment of Homeless Individuals.
        Rockvile, MD. : October 1988

National Law Center on Homelessness and Poverty. 
                                  The Stewart B. McKinney Homeless
        Assistance Act: An Analysis of its Current Status.                            Washington , D. C.: November 1989

National Law Center on Homelessness and Poveny. 
                                   Pending Homeless Legislation ­
         August          15, 1989. Washington , D.

Patton , Lary T. " The Rural Homeless. " Health Resource and Services Administration
     Public Health Service , U. S. Deparment of Health and Human Services. August 1987

Quindlen , Anna. " Homes for Those in Need - and Drop the War Fuzzies.                                         Chicago
        Tribune.           Januar 23, 1990


Reardon , Patrcia T. " Doubts Cast on Homeless Count: Inaccurate Census Could Cost
    Chicago Federal Funds. Chicago Tribune. 
   March 12 , 1990. pp. 1; 10


Rimer, Sara. " New York City Project to Hospitalize Mentaly                                     II Homeless   Makes Inroads.
        New York Times.                   July 18, 1989. p. 12



Sanders, Dennis. " The Dream That Failed.                               Notre Dame Magazine.
          Winter 1989- 90.
        pp. 35­



Schwarz            , David C. and Glascock John H.                    Combating Homelessness: A Resource Book.
        American Affordable Housing Institute. Rutgers, New Jersey

Stein ,     Sharon. " We Know Little About Homeless Beyond Images.                                      Chicago Tribune.
        April! ,           1990. pp. 1




                                                                       A ­

.,




     Tenenbaum , Jacob E.                  Health Care for the Medically Indigent.                                 S. Depanment of Health
             and Human Services. Washington, D.                                  : September 1985


     The Council of Better Business Bureaus ' Philanthropic Advisory Service.                                              Insight:   Arlington
         VA. : Issue 2 , 1989


       The Homelessness Test: There is a Right Answer.                                        New York Times. 
         March 1, 1990


     The National Alliance to End Homelessness.                                  Alliance.        Washington , D. C.: December 1989

     The National Allance to End Homelessness.                                   Allance.         Washington , D. C.:          August/September
             1989

     The National Alliance to End Homelessness.                                  Allance.         Washington, D.          : July 1989


     The National Allance to End Homelessness.                                   Housing and Homelessness.
                 Washington , D. C.:
             June 1988



     The National Allance to End Homelessness.                                   There s No Place Like Home.                   Washington , D.

     The National Mental Health Association and Famlies for the Homeless. 
                                               Homeless in
             America.         Acropolis Books. Washington , D. C.:                             1988


     The Parnership for the                 Homeless.          Moving Forward: A National Agenda to Address
             Homelessness in 1990 and Beyond. 
                     New York , New York: 1989

     The Robert Wood Johnson Foundation.                                 A Bridge.           Communications Office. Prnceton ,            N.
             Autumn 1987

     The Roben Wood Johnson Foundation.                                  The Homeless Familes Program.                       Prnceton , N.J.
             September 1989



     The Robert Wood Johnson Foundation and Pew Memorial Trust. 
                                                  Health Care for the
             Homeless Program.                    December 1983


     The Roben Wood Johnson Foundation and the U. S. Deparent of Housing and Urban
             Development.             Programsforthe Chronically Mentally Ill.                                    Januar 1986

     Toelle, Miram E. and Kerwin , Sheila. " Children in Transition.                                               Children Today.
          September- October 1988. pp. 27­

     Travelers and Immigrants Aid.                       Annual Report               1989:     Communities of Hope and Justice.
             Chicago, 11.: 1989




                                                                                 A - 5

United States General Accounting Offce. 
                             Homelessness: McKinney Act Programs and
        Funding for Fiscal Year                  1989. Washington ,        D. : February 1990

United States General Accounting Offce. 
                             Homelessness Prevention: Demandrjor Aid is
        Great, But Effectiveness is Unknown. 
                        Washington , D. C.: December 12 , 1!t89

United States General Accounting Office. 
                        Homelessness: HUD' s and FEMA' s Progress in
        Implementing the McKinney Act. 
                        Washington , D. : May 1989

United States General Accounting Office. 
                        Homeless and Runaway Youth Receiving Services
        at Federally Funded Shelters. 
                      Washington , D. C.: 1989

United States General Accounting Offce. 
                              Homelessness: A Complex Problem and the
        Federal Response.                  Washington , D. C.:           April 9, 1985


United States Deparent of Health and Human Services.     Health Carefor the Homeless:
    Report to the Congress on the Utilzation and Cost of Health Care Services Provided
     Under Section 340 of the Public Health Service Act. Washington , D. C.: July 1989

United States Department of Health and Human Services. 
   DIG Management Advisory
        Report: " State Programs to Provide Shelter and Temporary Housing for Familes.
        Washington , D. : June 30, 1989

United States Deparent of                        Health and Human Services.              Implementation of the Stewart B.
        McKinney Homeless Assistance Act.                             Washington, D. C.: October 1987

United States Deparent of Health and Human Services.   Primary Health Services and
    Substance Abuse Services: Grantsfor the Provision of Health Services for the Homeless.
     Washington , D. C.: July 1987

United States Department of Health and Human Services. 
                                 Use of the Emergency Assistance
        and AFDC Programs to Provide Shelter to Familes. 
                               Washington , D.

United States Department of Housing and Urban Development. 
                                  HOPE: Homeownership and
        Opportunity for People Everywhere. 
                           Office of Policy Development, Washington , D. C.:
        March 1990


United States Department of Housing and Urban Development. 
                                  Homeless Assistance Policy
        and Practice in the Nation s Five Largest Cities.                           Office of Policy Development and
        Research. Washington , D. C.: 1989

United States Department of Housing and Urban Development.                                    The   1988   National Survey of
        Shelters for the Homeless. 
                  Office of Policy Development and Research. Washington
                : 1989




                                                                              A-6
United States Deparent of                     Housing and Urban Development.                  SAFAH Grants: Aiding
        Comprehensive Sfrategies for the Homeless. 
                            Offce of Policy Development and
        Research. Washington , D.                         : November 1988

United States Deparnnent of Housing and Urban Development. 
                                Homeless Assi!tance
        Programs.          Washington, D.                 : May 11 ,    1987

United States Deparnnent of Housing and Urban Development. 
                                A Report on the 1988
        National Survey of Shelters for the Homeless. 
                          Office of Policy Development and
        Research ,       Washington , D. C.

United States Deparent of Labor.   Synopses of Homeless Job Training Demonstration
    Projects.  Division of Performance Management and Evaluation. Washington , D. C.:
        Januar 1989


Welch , William. " Social Security Chief Says Her Agency Neglects Poor.                                The Indianapolis
    Star. April 6, 1990




                                                                         A ­

                               APPENDIX B


                          States and Sites Contacted

Massachusetts                          Texas
      Boston                                   Dalas
      New Bedford                              Waco
      Franklin County                          Zavala County

New York                               Missouri
      New York City                         Kansas City
      Syracuse                              Springfield
      Allegany County                       St. Francois City

Pennsylvania                           Colorado
     Philadelphia                           Denver
      Erie                                  Pueblo
      Huntingdon County                        Montrose County

Georgia                                California
     Atlanta                                   San Francisco

     Columbus                                  Stockton
      Athens                                   Crescent City



Illnois                                Washington
      Chicago                               Seattle
      Rockford                              Tacoma
      Saline County                            Skagit County
                         . ----- -...   .-- '..




                                             APPENDIX C

                 Suggested Topics for Follow-up Studies
                         Services to the Homeless
                         on




Coordination between veterans ' programs and: (1) the health care system , and, (2) the
Supplemental Security Income program

Linkages between mental health and substance abuse services

Case management

Outreach to the homeless by traditional Federal assistance programs




                                                  C - 1

